                               United States Attorney Benjamin B. Wagner
                                       Eastern District of California
FOR IMMEDIATE RELEASE                                                    CONTACT: Lauren Horwood
Thursday, December 22, 2011                                                  PHONE: (916) 554-2706
www.usdoj.gov/usao/cae                                                   usacae.edcapress@usdoj.gov
Docket #: 1:11-cr-00445 AW I


     BAKERSFIELD WOMAN CHARGED WITH THEFT OF SOCIAL SECURITY
                    BENEFITS AND BANK FRAUD

       FRESNO, Calif. — United States Attorney Benjamin B. Wagner announced that a federal
grand jury returned an indictment today charging Delila Louise Owens, 65, of Bakersfield, with
one count of theft of Social Security survivor benefit payments and one count of bank fraud.

        According to the indictment, between May 2002 and September 2009, Owens’s
grandmother’s Social Security survivor benefits continued to be deposited into a bank account
jointly owned by her grandmother and mother despite both of their deaths. Though Owens did
not have signatory authority over her grandmother and mother’s checking account, she used an
ATM card for the account to make withdrawals. The indictment further alleges that between
February 2004 and March 2008, Owens forged checks on her deceased mother’s bank account, in
her mother’s name, in order to obtain the Social Security funds to which the defendant knew she
was not entitled.

       This case is the product of an investigation by the Social Security Administration, Office
of Inspector General. Assistant United States Attorney Henry Z. Carbajal III is prosecuting the
case.

        She is scheduled to be arraigned on January 23, 2012 in the Fresno federal court.

         If convicted, Owens faces a maximum statutory penalty for theft of public money of 10
years in prison. The maximum statutory penalty for bank fraud is 30 years in prison. If convicted,
the actual sentence, however, will be determined at the discretion of the court after consideration
of any applicable statutory factors and the Federal Sentencing Guidelines, which take into
account a number of variables.

       The charges are only allegations and the defendant is presumed innocent until and unless
proven guilty beyond a reasonable doubt.

                                              ####
